GR-50-98-017
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANTS TO THE ST. LOUIS METROPOLITAN POLICE DEPARTMENT
ST. LOUIS, MISSOURI
Award Number 95CCWX0165
Audit Report Number GR-50-98-017
June 25, 1998
 
 

EXECUTIVE SUMMARY
 
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the St. Louis Metropolitan Police Department (Police Department). The
Police Department received a $1,723,728 grant to hire or rehire 23 additional sworn police
officers under the Accelerated Hiring, Education, and Deployment (AHEAD) program, and two
supplemental awards totalling $3,675,000 under the Universal Hiring Program (UHP) to hire
or rehire 49 additional sworn police officers. In addition, it received an $881,085 award
under the Making Officer Redeployment Effective (MORE) program to re-deploy 78.3 full time
equivalent police officers. This audit focused on the AHEAD grant, as no funds had not
been requested nor expended under the UHP and the MORE grants. 
Generally, the Police Department properly managed the COPS AHEAD grant; however, our
audit revealed that:

- The Police Department requested and received $892 over the amount allowed under the
  grant. This was due to a data entry error in the payroll records in which the salary of
  one officer was entered twice.
- The Officer Progress Reports and the second Annual Department Report were not
  submitted to COPS. In addition, most Financial Status Reports to the Office of Justice
  Programs (OJP) were either late or not filed. 

 
#####